U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 26, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Ravneer Singh v. United States of America,
S.CtNo. 19-572

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 28,
2019, and placed on the docket on October 31, 2019. The government's response is due on
December 2, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 2, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0572
SINGH, RAVNEER
USA

TODD W. BURNS
BURNS & COHAN
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-236-024
HAROLD J. KRENT
ITT CHICAGO-KENT COLLEGE OF LAW
565 WEST ADAMS STREET
CHICAGO, IL 60661
312-906-5010
HKRENT@KENTLAW.IIT.EDU

